FY 2005 OFFICE OF INSPECTOR GENERAL
FISMA REVIEW OF GSA’S INFORMATION
  TECHNOLOGY SECURITY PROGRAM
  REPORT NUMBER A050174/O/T/F05024


          September 21, 2005
                                   FY 2005 OFFICE OF INSPECTOR GENERAL
                                   FISMA REVIEW OF GSA’S INFORMATION
                                     TECHNOLOGY SECURITY PROGRAM
                                     REPORT NUMBER A050174/O/T/F05024

                                                     TABLE OF CONTENTS


EXECUTIVE SUMMARY ............................................................................................................. i

INTRODUCTION .......................................................................................................................... 1
   Objectives, Scope, and Methodology ......................................................................................... 1

RESULTS OF AUDIT.................................................................................................................... 3
   GSA’s Certification and Accreditation Process Was Not Consistently Utilized........................ 4
   Contingency Plans Were Not Developed and Tested For Three Systems.................................. 5
   System Owners Were Not Comprehensively Identifying and Managing Technical Security
   Weaknesses ................................................................................................................................. 6
   Comprehensive Oversight and Evaluation of Contractors Remains an Issue............................. 7
   RECOMMENDATIONS............................................................................................................ 9

MANAGEMENT COMMENTS.................................................................................................... 9

INTERNAL CONTROLS .............................................................................................................. 9

                                                            APPENDICES
GSA, OFFICE OF INSPECTOR GENERAL RESPONSES TO THE OFFICE OF
MANAGEMENT AND BUDGET’S FISMA QUESTIONS..................................................... A-1
TEN SYSTEMS REVIEWED BY THE OFFICE OF INSPECTOR GENERAL IN 2005 ....... B-1
RESULTS OF TECHNICAL VULNERABILITY SCANNING FOR TEN SYSTEMS .......... C-1
STATUS OF CONTRACTOR BACKGROUND CHECKS FOR TEN SYSTEMS................. D-1
GSA CIO’S RESPONSE TO DRAFT AUDIT REPORT...........................................................E-1
REPORT DISTRIBUTION .........................................................................................................F-1
                       FY 2005 OFFICE OF INSPECTOR GENERAL
                       FISMA REVIEW OF GSA’S INFORMATION
                         TECHNOLOGY SECURITY PROGRAM
                         REPORT NUMBER A050174/O/T/F05024

                                 EXECUTIVE SUMMARY

Purpose

This audit report presents the results of the Inspector General’s Fiscal Year (FY) 2005
independent evaluation of the General Services Administration’s (GSA) Information Technology
(IT) Security Program and controls for select systems as required by the Federal Information
Security Management Act of 2002 (FISMA). The objective of the audit was to assess the
effectiveness of GSA’s IT Security Program and practices for select systems, and respond to
specific questions posed in the Office of Management and Budget’s (OMB) FY 2005 reporting
guidance for FISMA. This audit report is provided for inclusion as an appendix in GSA’s FY
2005 FISMA report and FY 2007 budget submission to the OMB.

Background

FISMA provides a comprehensive framework for (1) ensuring the effectiveness of information
security controls over information resources that support Federal operations and assets; (2)
development and maintenance of minimum controls required to protect Federal information and
information systems; and (3) improved oversight of agency information security programs.

Results-in-Brief

While steps have been taken to improve GSA’s IT Security Program, our review found
management, operational, and technical control weaknesses that require management attention.
System owners had not consistently implemented GSA’s IT Security Program, thus exposing
agency systems to undue risk. System certification and accreditation packages were not always
complete and testing of contingency plans continues to be an area of risk. Patch management
processes were not in place to ensure the timely mitigation of known vulnerabilities for
contractor maintained devices that had not been securely configured. Oversight and evaluation
of security controls for subcontractors and third party system interconnections was not
consistently performed by system owners for contractor provided solutions. Finally, background
checks were not performed for contractors before they were granted access to GSA systems, a
condition reported in 2003 and 2004. Overall, system owners continue to demonstrate that more
consistent implementation of GSA’s IT Security Program and increased system monitoring is
needed. Responses to specific OMB FISMA questions are included in Appendix A.




                                              i
Recommendations

To improve security over GSA’s data and information technology assets, we recommend that the
GSA-CIO take actions to:

1)     Increase oversight of GSA’s Information Technology Security Policy and procedure
       implementation related to certification and accreditation to ensure that:
       a) Security for third party interconnections is assessed and evaluated as part of system
           certification and accreditation.
       b) Certification and accreditation documentation, including risk assessments, security
           plans, security plan testing and evaluations, and plans of action and milestones are
           current and complete.

2)     Develop and implement procedures to ensure completion and maintenance of system
       contingency plans as part of the Certification and accreditation process, and clarify roles,
       responsibilities, and requirements for comprehensive system contingency plan testing.

3)     Develop an enterprise-wide approach to patch management and vulnerability scanning to
       include identification of tools and processes to clarify roles and responsibilities for
       system owners in managing risks for their systems, including devices maintained by
       vendors.

4)     Expand the quarterly technical vulnerability scanning program provided by the Office of
       the Senior Agency Information Security Officer to include oversight and evaluation of
       system owners’ application of hardening guides for routers, switches, and devices
       maintained by vendors.

5)     Identify and promote the adoption of compensating controls across GSA to minimize
       risks where persons were granted access to systems or data prior to the completion of
       required background checks.

Management Comments

The GSA-CIO concurred with the findings and recommendations outlined in this report.




                                                ii
                                            INTRODUCTION

The Federal Information Security Management Act of 2002 (FISMA) provides a framework for
securing Federal information systems including: (1) ensuring the effectiveness of information
security controls over information resources; (2) development and maintenance of minimum
controls required to protect Federal information and information systems; and (3) a mechanism
for improved oversight of agency information security programs. This audit report presents the
results of the Inspector General’s Fiscal Year (FY) 2005 independent evaluation of the General
Services Administration’s (GSA) agencywide Information Technology (IT) Security Program
and controls for select systems as required by FISMA.

Objectives, Scope, and Methodology

The objective of this audit was to assess the effectiveness of GSA’s IT Security Program and
practices for select systems in meeting FISMA requirements. Our response to specific questions
outlined in the Office of Management and Budget (OMB) FY 2005 reporting guidance for
FISMA is included in Appendix A. This audit report is provided for inclusion as an appendix in
GSA’s FY 2005 FISMA report and FY 2007 budget submission to the OMB.

We met with agency IT security officials in the GSA Office of the Chief Information Officer and
Services, Staff Offices, and Regions (S/SOs/R), including the GSA Chief Information Officer
(GSA-CIO), Senior Agency Information Security Officer, and Information System Security
Managers and Officers (ISSMs and ISSOs) for select systems. An assessment of security
controls for 10 systems across GSA’s S/SOs/R was also conducted. Appendix B lists the 10
systems reviewed as part of this audit. We reviewed GSA’s agencywide IT Security Policy1 and
procedures, standards, and guidelines for implementing GSA’s IT Security Program. To obtain
information on commonly accepted IT security principles and practices, we used the National
Institute of Standards and Technology (NIST) Federal Information Processing Standards
Publications and Special Publication 800 series security guidelines. We also reviewed GSA’s
annual financial statement audit report for FY 2004, including management letters and
penetration test results.

To assess the effectiveness of GSA’s IT Security Program, we reviewed security controls for
seven major applications and three general support systems. We examined risk assessments,
security plans, system testing and evaluation results, certification and accreditation letters,
contingency plans, and system-level Plans of Action and Milestones (POA&M) for each system.
We also performed vulnerability scanning on the 10 systems using the StillSecure Vulnerability
Assessment and Management tool.

In addition to FISMA, we used other applicable regulations and policies including: OMB
Circular A-130 Revised, Appendix III, Security of Federal Automated Information Resources,
November 2000; GSA Order CIO P 2100.1B - GSA Information Technology Security Policy,
November 4, 2004; GSA’s procedural guides on conducting risk assessments, certification and
accreditation, incident handling, and related technical hardening guides and standards, available
on the GSA-CIO’s IT Security Intranet site; NIST Federal Information Processing Standards
Publications, and 800 series special publications; and Homeland Security Presidential Directive

1
    GSA Order CIO P 2100.1B - GSA Information Technology Security Policy, November 4, 2004.
                                                      1
(HSPD) 12 “Policy for a Common Identification Standard for Federal Employees and
Contractors,” August 27, 2004.

Audit work was performed between April 2005 and September 2005 in accordance with
generally accepted government auditing standards.




                                       2
                                     RESULTS OF AUDIT

While steps have been taken to improve the General Services Administration’s (GSA) Information
Technology (IT) Security Program, our review found management, operational, and technical
control weaknesses that require management attention. GSA’s IT Security Program, including the
agencywide policy, procedural and technical guides, and security awareness and training, have
been updated to reflect NIST, OMB, and Office of Personnel Management guidance. The GSA-
Chief Information Officer (GSA-CIO) has implemented a process to review system Certification
and Accreditation (C&A) documentation for consistency with agency policy and NIST guidance
and has updated its inventory of information systems covered under the IT Security Program to
include all IT investments. The GSA-CIO also employs a vulnerability scanning program to
verify implementation of the agency’s security configuration policy for approximately 2,000
servers across all agency systems. However, system owners for 10 select systems we reviewed
had not consistently implemented GSA’s IT Security Program, thus exposing agency systems to
undue risk. System C&A packages did not always include a complete risk assessment, security
plan, Security Test and Evaluation (ST&E), and Plan of Action and Milestones (POA&M). One
general support system had not updated C&A documentation to include controls to mitigate risk
with Voice over Internet Protocol (VoIP), and scanning identified several critical level
vulnerabilities within the VoIP infrastructure. Testing of contingency plans continues to be an
area of risk, as three of ten systems we reviewed did not have tested contingency plans in place.
For five of the remaining seven systems, testing was not comprehensive or did not cover critical
components of the contingency plans. POA&Ms for two major applications and one general
support system did not include specific known system security weaknesses and, as such, it was
unclear how risk was being managed for these systems. GSA’s IT Security Program was not
consistently implemented, as evidenced by risk assessments and security plans that were not
comprehensive and by incomplete POA&Ms, both of which were reported as areas needing
improvement in 2004. Contractor maintained devices on two general support systems had not
been securely configured, including network enabled printers and VoIP servers, which had several
critical and major vulnerabilities. Patch management processes were not in place to ensure the
timely mitigation of known vulnerabilities for contractor maintained devices. Oversight and
evaluation of security controls for subcontractors and third party system interconnections was not
consistently performed by system owners for three contractor provided solutions. Finally,
background checks were not performed for contractors before granting them access to GSA
systems, a condition reported in 2003 and 2004. Overall, system owners continue to demonstrate
that more consistent implementation of GSA’s IT Security Program and increased system
monitoring is needed. Appendix A contains our response to specific FISMA questions, as
requested by OMB, which was included with our assessment of the effectiveness of GSA’s IT
security program and practices for a subset of systems.




                                                3
GSA’s Certification and Accreditation Process Was Not Consistently Utilized

The GSA-CIO has developed an IT systems security C&A process, however, the process was not
consistently implemented across the systems reviewed. C&As were not updated to reassess risks
after major changes for two of ten systems. Risk assessments, security plans, or ST&E results
were incomplete and, in one instance, outdated for the systems we reviewed. POA&Ms were not
consistently used to manage IT security weaknesses. These conditions confirm that GSA’s IT
Security Program controls over the C&A process should be strengthened to effectively manage
risks.

A general support system in our sample deployed Voice over Internet Protocol (VoIP) without
updating its risk assessment and security plan. As a result, technical security weaknesses with
the VoIP implementation went undetected. Another general support system moved to a new
operating system and combined two networks, but did not address these changes in a subsequent
update to the security plan. The impact on security of the system’s change in hardware and
software was unclear without a reassessment of security controls. GSA’s IT Security Policy
requires all GSA major applications and general support systems to be certified and accredited at
least every three years or whenever there is a significant change to the system’s security posture.
Information System Security Officers (ISSOs) are responsible for monitoring system security
and maintaining security documentation. Post accreditation activities are necessary to maintain
the system accreditation status throughout the system life cycle.2 The current quality control
process for C&As has not always been effective in identifying major changes with GSA systems
that require a reassessment of risks and controls.

Two major applications and a general support system did not include a threat-likelihood level
matrix in their system risk assessment. For one system, which is part of a major application, the
C&A did not address specific risk areas and security controls. Another major application’s
ST&E was over three years old and the ST&Es for one major application and one general
support system did not contain plans for correcting or addressing weaknesses.

The GSA-CIO has implemented an agencywide process to track program and system-level
POA&M activities on a quarterly basis. However, program officials did not consistently use a
POA&M to manage IT security weaknesses. Specifically, two major applications and one
general support system supporting GSA did not include security weaknesses identified through
the C&A process in their POA&M. One general support system was recording weaknesses from
the ST&E in another document, but this document was not noted as being used on the POA&M.
For another major application, identified weaknesses were not mitigated within specified
timeframes as required in the system accreditation letters. A recent Statement on Auditing
Standards 70 (SAS 70) review noted that these weaknesses were removed from the system
POA&M, but were not yet resolved. Similar findings with the POA&M process were reported in
2003 and 2004.

Office of Management and Budget (OMB) guidance on FISMA directs agency CIOs and
program officials to develop, implement, and manage POA&Ms for all programs and systems

2
 NIST Special Publication 800-37, “Guide for the Security Certification and Accreditation of Federal Information
Systems,” May 2004.
                                                        4
that they operate and control. When using a risk-based approach, security weaknesses with the
greatest and most immediate potential impact are addressed first. GSA’s IT Security Policy and
procedures on POA&Ms are consistent with OMB guidance. POA&Ms should include all
security weaknesses found during any other review done by, for, or on behalf of the agency,
including Government Accountability Office audits, financial system audits, and critical
infrastructure vulnerability assessments. System-level POA&Ms were not always used to
effectively manage risks because specific security weaknesses were not identified and tracked.

The GSA-CIO continues to rely on the Information System Security Managers (ISSMs) and
ISSOs across the agency to implement the GSA IT Security Policy. Even though the GSA-CIO
published the POA&M Implementation Guide in May 2005 to clarify requirements, weaknesses
identified through the C&A process were not consistently being recorded on POA&Ms in a
timely manner for seven of the ten systems we reviewed. Inconsistent use of the POA&M
process resulted in security weaknesses not being promptly tracked and mitigated.

Contingency Plans Were Not Developed and Tested For Three Systems

Three of ten systems reviewed that were certified and accredited had not developed an IT
contingency plan but two had addressed some limited elements of contingency planning in
Continuity of Operations Plans (COOP). One contingency plan for a major application did not
address all system components and data center sites. While IT contingency plans had been
developed for the seven other systems we reviewed, the plans for those systems were missing
key elements of contingency planning as outlined by the National Institute of Standards and
Technology (NIST) Special Publication (SP) 800-34.3 Three of ten systems included in our
review had not tested their contingency plans, while the other seven systems had performed
limited testing of their contingency plans. The GSA-CIO requires that NIST SP 800-34 be used
when performing tasks related to contingency planning. GSA’s C&A process, consistent with
NIST SP 800-37, does not require the formal development of IT contingency plans as part of
C&A, even though contingency plans are essential to system availability and security.

GSA’s IT Security Policy requires the development of a contingency plan for each system in
accordance with OMB Circular A-130, Appendix III. Two general support systems that provide
IT communications and data processing infrastructure for GSA associates in two Regions did not
have a documented IT contingency plan developed, but had noted this weakness in their
POA&Ms. Security officials for these two general support systems provided a COOP in lieu of
an IT Contingency Plan. However, the COOPs did not address recovery procedures for IT
operations, and as such, it is unclear how these two general support systems will be able to
recover and restore IT operations in the event of a contingency.

While IT contingency plans had been developed for seven of ten systems reviewed, most of these
plans were missing key elements of contingency planning as recommended by NIST. Five of
seven contingency plans did not include a business impact analysis to identify and prioritize
critical system components and identify disruption impacts and appropriate system downtimes.
Without a business impact analysis, it is unclear how contingency planning requirements and
recovery processes would be prioritized. One contingency plan for a major application did not

3
    NIST Special Publication 800-34, “Contingency Planning Guide for Information Technology Systems,” June 2002.

                                                        5
address all system components and data center sites. Another major application did not include
detailed procedures for system recovery. These conditions could negatively impact the ability to
recover from a contingency situation.

Contingency plan testing is a critical component of the contingency planning process that
enables plan deficiencies to be identified and addressed, and helps to evaluate the ability of
recovery personnel to implement the plan efficiently. NIST recommends that contingency plan
testing include all elements of the contingency plan and address six areas: (1) system recovery on
an alternate platform, (2) coordination amongst recovery teams, (3) internal and external
connectivity, (4) system performance using alternate equipment, (5) restoration of normal
operations, and (6) notification procedures. Seven of ten systems had tested their contingency
plans, however, testing was not comprehensive in accordance with NIST guidance.

System Owners Were Not Comprehensively Identifying and Managing Technical Security
Weaknesses

While the Office of the GSA-CIO has employed a technical vulnerability scanning program to
verify implementation of required security configurations for approximately 2,000 servers across
the agency, we found that system owners were not routinely identifying and managing technical
security weaknesses for their systems. We found technical security vulnerabilities on servers and
other network devices that were not included in the scanning performed by the Office of the
GSA-CIO. Our scanning identified contractor maintained devices on GSA’s network that had
not been hardened according to GSA’s IT Security Policy. These devices had several critical
vulnerabilities that exposed GSA’s network to unnecessary risks. Further, there was no patch
management process in place for two general support systems to ensure that security
vulnerabilities were mitigated in a timely manner. Summary results of technical vulnerability
scanning for systems are included in Appendix C.

GSA’s IT Security Policy requires ISSOs to evaluate known vulnerabilities, to ensure their
systems are patched, and to harden their systems according to GSA-CIO procedural guides. For
two general support systems we reviewed, ISSOs were relying on the quarterly vulnerability
scanning of servers performed by the Office of the GSA-CIO to identify known vulnerabilities
and were not ensuring that their systems were patched and security hardened as required by
GSA’s IT Security Policy. One Regional office employed VoIP, which included a voicemail
server with several critical vulnerabilities that, if exploited, could impact the confidentiality,
integrity, and availability of the VoIP system. While system owners advised us that they were in
the process of implementing patch/configuration management tools for the Regions, a patch
management process to securely configure and harden all system devices to address security
vulnerabilities in a timely manner was not in place for these general support systems. As a
result, GSA’s IT environment was exposed to unnecessary risks.

Vulnerability scans conducted on three contractor provided eGovernment systems behind
contractors’ firewalls revealed that one contractor was running an HP-UX server that had not
been hardened as required. Our scanning found several critical level vulnerabilities on this
server that, if exploited, could affect the confidentiality, integrity, and availability of this
eGovernment system. The GSA-CIO was not aware that any agency systems were running HP-
UX and the ISSO had not ensured that the HP-UX server was hardened and patched in
accordance with industry best practices as required by the GSA IT Security Policy. As a result,
                                               6
two actions are needed for system owners to identify and manage technical security weaknesses.
An enterprise-wide approach to patch management, as well as technical vulnerability scanning
by system owners is needed. More comprehensive monitoring by the GSA-CIO of system
devices other than servers would assess the effectiveness of hardening guides and measure the
extent of their implementation. These actions would improve security over GSA’s data and
information technology assets.

Comprehensive Oversight and Evaluation of Contractors Remains an Issue

While the GSA-CIO has taken steps to ensure the security of contractor provided solutions and
services, we found that the ISSO for three contractor provided eGovernment systems that
process, store, and transmit Privacy Act information had not ensured that GSA security policies
and procedures were being followed by subcontractors and third party system interconnections
processing sensitive government data. System owners and ISSOs had not ensured that required
background checks had been performed for all contractors supporting the systems reviewed.
Furthermore, for background checks that had been completed, there were a number of different
types of checks that were performed, which were not always consistent with requirements stated
in GSA’s IT Security Policy. As such, GSA systems and sensitive Privacy Act data are at an
increased risk of being compromised. Appendix D lists the status of background checks for
contractors supporting the 10 systems we reviewed by type of check performed.

The GSA-CIO has implemented several controls to provide oversight and evaluation of
contractor provided and supported systems. The Office of the GSA-CIO performs quarterly
scanning of contractor supported systems and reviews contractors’ internal system scanning
results. NIST SP 800-26 self-assessments were also performed for all GSA systems including
contractor provided/supported systems. However, for three contractor provided eGovernment
solutions, the ISSO had not provided comprehensive oversight and evaluation of third party
vendors that were receiving and processing Privacy Act Data for government employees since
system interconnections had not been authorized as part of the C&A. While the risk assessment
for one eGovernment solution identified lack of verification of security for third parties as a risk
area, the system owner decided not to verify the security of third parties supporting the
eGovernment solution system interconnections. As such, the risk of compromising Privacy Act
data by the solution providers supporting the vendors was increased. OMB Circular A-130
Appendix III requires agencies to obtain written management authorization before connecting
their IT systems to other systems. NIST guidance recommends that a written authorization be
documented in the form of a Memorandum of Agreement or Interconnection Security
Agreement. This written authorization should define the rules of behavior and controls that must
be maintained for the system interconnection.

In addition, timely completion of background checks for contractor personnel with access to
GSA systems and data remains a risk. The GSA-CIO recognized the need for background
checks by reporting this security weakness on the agencywide POA&M, and subsequently
indicated completion of that item in November 2004. Similar to findings in our 2003 and 2004
FISMA reviews, independent assessments of 10 systems in 2005 found that background checks
were not completed for approximately half of the identified contractors allowed access to these
systems or data, and the type of background check completed varied widely, as shown in
Appendix D. ISSOs were unable to provide the status of background checks for contractors
supporting one system.
                                              7
Subsequent to a recommendation in our 2004 FISMA report, the GSA-CIO revised the
background check requirement from a National Agency Check with Inquiries Credit (NACIC) to
a Special Agreement Check (SAC) as follows: “Contractors who design, operate, test, maintain,
and/or monitor GSA systems must have at least a background investigation consisting of a
Special Agreement Check (SAC) consisting of the following checks: FBI Fingerprint,
Security/Suitability Investigations Index (SII), Defense Clearance and Investigations Index
(DCII), Immigration and Naturalization Service Master Index (INSMI), and credit.” 1 With the
revised policy, system security officials were reminded of their responsibilities to obtain the
background checks.

Discussions with the Senior Agency Information Security Officer confirmed that GSA will be
required to address background checks in FY 2006 with implementation of Homeland Security
Presidential Directive-12 (HSPD-12) on common identification standards for Federal employees
and contractors. Under HSPD-12 all Executive Departments and Agencies and independent
establishments must issue credentials based on a “National Agency Check with Written Inquiries
(NACI).” However, until HSPD-12 is implemented, system owners should be reminded that the
lack of completed background checks remains a risk, and that compensating controls should be
implemented in all cases where personnel without background checks have already been given
access to GSA systems or data.




                                              8
                                   RECOMMENDATIONS

To improve security over GSA’s data and information technology assets, we recommend that the
GSA-CIO take actions to:

1)     Increase oversight of GSA’s Information Technology Security Policy and procedure
       implementation related to certification and accreditation to ensure that:
       a) Security for third party interconnections is assessed and evaluated as part of system
           certification and accreditation.
       b) Certification and accreditation documentation, including risk assessments, security
           plans, security plan testing and evaluations, and plans of action and milestones are
           current and complete.

2)     Develop and implement procedures to ensure completion and maintenance of system
       contingency plans as part of the certification and accreditation process, and clarify roles,
       responsibilities, and requirements for comprehensive system contingency plan testing.

3)     Develop an enterprise-wide approach to patch management and vulnerability scanning to
       include identification of tools and processes to clarify roles and responsibilities for
       system owners in managing risks for their systems, including devices maintained by
       vendors.

4)     Expand the quarterly technical vulnerability scanning program provided by the Office of
       the Senior Agency Information Security Officer to include oversight and evaluation of
       system owners’ application of hardening guides for routers, switches, and devices
       maintained by vendors.

5)     Identify and promote the adoption of compensating controls across GSA to minimize
       risks where persons were granted access to systems or data prior to the completion of
       required background checks.

                               MANAGEMENT COMMENTS

The GSA-CIO concurred with the findings and recommendations outlined in this report. A copy
of the GSA-CIO’s comments are included in their entirety as Appendix E.

                                  INTERNAL CONTROLS

As discussed in the Objectives, Scope, and Methodology section of this report, the objective of
our review was to assess the effectiveness of GSA's IT Security Program and practices for select
systems in meeting FISMA requirements. While this audit included a review of management,
operational, and technical controls for 10 GSA systems, we did not test all system controls across
the agency. The Results of Audit and Recommendations sections of this report state in detail the
need to strengthen specific managerial, operational, and technical controls with the IT Security
Program.



                                                9
          FY 2005 OFFICE OF INSPECTOR GENERAL
          FISMA REVIEW OF GSA’S INFORMATION
            TECHNOLOGY SECURITY PROGRAM
            REPORT NUMBER A050174/O/T/F05024

     GSA, OFFICE OF INSPECTOR GENERAL RESPONSES TO
THE OFFICE OF MANAGEMENT AND BUDGET’S FISMA QUESTIONS




                          A-1
A-2
A-3
A-4
A-5
A-6
                                 FY 2005 OFFICE OF INSPECTOR GENERAL
                                 FISMA REVIEW OF GSA’S INFORMATION
                                   TECHNOLOGY SECURITY PROGRAM
                                   REPORT NUMBER A050174/O/T/F05024

     TEN SYSTEMS REVIEWED BY THE OFFICE OF INSPECTOR GENERAL IN 2005

        System                   Owner                                             Description
                                                  The Sales Automation System (SASy) is the FSS automated system to conduct
                             Federal Supply       sales of surplus government property in an efficient, expeditious manner and
        SASy
                                Service           obtain maximum net returns with a minimum of inconvenience to holding
  (Major Application)
                                 (FSS)            agencies. SASy is a contractor supported Privacy Act system categorized as
                                                  low risk.
                                                  eOffer is an Internet accessible application designed to offer the vendor
           eOffer            Federal Supply
                                                  community an electronic means for submitting contract offers to the GSA FSS
(Part of the FSS-19 Major       Service
                                                  and is part of FSS-19. eOffer is a contractor supported system categorized as
       Application)              (FSS)
                                                  moderate risk.
                                                  Electronic Data Systems (EDS) eTravel provides one of three eGovernment
                                                  travel solutions whose purpose is to realize operational efficiencies, cost-
                             Federal Supply
     eTravel EDS                                  savings, and increased service to the Federal traveler through a common,
                                Service
  (Major Application)                             automated, and integrated approach to managing Federal Government travel
                                 (FSS)
                                                  functions. eTravel EDS is a contractor provided hardware and software
                                                  solution containing Privacy Act data categorized as moderate risk.
                                                  Carlson Wagonlit (CWGT) eTravel provides one of three eGovernment travel
                                                  solutions whose purpose is to realize operational efficiencies, cost-savings, and
                             Federal Supply
    eTravel CWGT                                  increased service to the Federal traveler through a common, automated, and
                                Service
  (Major Application)                             integrated approach to managing Federal Government travel functions.
                                 (FSS)
                                                  eTravel CWGT is a contractor provided hardware and software solution
                                                  containing Privacy Act data categorized as moderate risk.
                                                  Northrup Grumman Mission Systems (NGMS) eTravel provides one of three
                                                  eGovernment travel solutions whose purpose is to realize operational
                             Federal Supply       efficiencies, cost-savings, and increased service to the Federal traveler through
    eTravel NGMS
                                Service           a common, automated, and integrated approach to managing Federal
  (Major Application)
                                 (FSS)            Government travel functions. eTravel NGMS is a contractor provided
                                                  hardware and software solution containing Privacy Act data categorized as
                                                  moderate risk.
                                                  Security risks for GSA’s Wide Area Backbone Network (WABN) are
                            Office of the Chief
         WABN                                     managed as part of the CIO’s Enterprise Infrastructure Operations system.
                               Information
(General Support System)                          WABN serves as the primary infrastructure for interconnecting GSA’s
                              Officer (CIO)
                                                  geographic locations and network users.
                                                  The Payroll Accounting and Reporting System (PAR) provides complete
                            Office of the Chief
         PAR                                      payroll functionality for GSA employees and maintains retirement records for
                            Financial Officer
  (Major Application)                             submission to the Office of Personnel Management. PAR is a contractor
                                  (CFO)
                                                  supported system categorized as moderate risk.
                                                  The National Electronic Accounting and Reporting (NEAR) system is
                            Office of the Chief   designed to control, record, classify, and summarize financial events to meet
        NEAR
                            Financial Officer     requirements of the Federal accounting for annual, multiple year, or no year
  (Major Application)
                                  (CFO)           appropriations and revolving funds. NEAR is a contractor supported system
                                                  categorized as moderate risk.
                                                  The Region 3 Public Buildings Service (PBS) Local Area Network (LAN)
        Region 3               Mid Atlantic
                                                  provides the Information Technology (IT) communications and data
       PBS LAN                   Region
                                                  processing infrastructure for GSA employees and contractors. This system is
(General Support System)          (R-3)
                                                  categorized as moderate risk.
        Region 9               Pacific Rim        The Region 9 Public Buildings Service/Federal Technology Service (FTS)
     PBS/FTS LAN                 Region           LAN provides the IT communications and data processing infrastructure for
(General Support System)          (R-9)           GSA employees and contractors. This system is categorized as moderate risk.




                                                             B-1
                        FY 2005 OFFICE OF INSPECTOR GENERAL
                        FISMA REVIEW OF GSA’S INFORMATION
                          TECHNOLOGY SECURITY PROGRAM
                          REPORT NUMBER A050174/O/T/F05024

   RESULTS OF TECHNICAL VULNERABILITY SCANNING FOR TEN SYSTEMS

Results of technical scanning for known vulnerabilities are presented below. Categorizations of
critical, major, and minor vulnerabilities are assigned by our automated scanning tool. All scans
were non-intrusive and conducted behind system firewalls with the assistance of system
administrators and Information System Security Officers. False positives and vulnerabilities
previously identified by systems owners as an acceptable risk have been excluded.

                               Devices          Critical          Major             Minor
         System                Scanned       Vulnerabilities   Vulnerabilities   Vulnerabilities

          SASy                    6                 0                 1                 3


          eOffer                  7                 0                 0                 1


       eTravel EDS                40                1                 1                 4


     eTravel CWGT                 8                 1                 2                 0


     eTravel NGMS                 5                 13                4                 14


         WABN                     20                10                10                10


           PAR                    21                0                 4                 3


          NEAR                    1                 0                 1                 0


        Region 3              78 (LAN)              66                25                14
        PBS LAN               8 (VoIP)              35                7                 6


        Region 9
                                 143                14                8                 2
      FTS/PBS LAN




                                              C-1
                                FY 2005 OFFICE OF INSPECTOR GENERAL
                                FISMA REVIEW OF GSA’S INFORMATION
                                  TECHNOLOGY SECURITY PROGRAM
                                  REPORT NUMBER A050174/O/T/F05024

       STATUS OF CONTRACTOR BACKGROUND CHECKS FOR TEN SYSTEMS

Independent assessments of 10 systems found that background checks were not completed for
approximately half of the identified contractors allowed access to these systems or data.
Background checks are the responsibilities of the System Owner, Information Systems Security
Manager and Information System Security Officer.

                             Number                                                                           Percent With a
                                of             Background                     Completed                         Completed
        System              Contractor         Checks Not                    Background                        Background
                            Personnel          Completed                    Checks By Type4                       Check
         SASy
                                  5                   2           3 NACIC                                           60%
               5
        eOffer
                                                                                                                     0%
     eTravel EDS
                                143                  82           61 Background Investigations6                     43%
                                                                  78 Consisting of all or parts of the
                                                                  following: County Criminal Search,
                                                                  Statewide Criminal Search, Federal
                                                                  District Court Criminal Search,
    eTravel CWGT
                                 78                   0           Government Watch List, Qualisys                  100%
                                                                  Drug Screen, 5 Panel Drug Test,
                                                                  Academic Check, Social Security
                                                                  Number Trace, Professional license,
                                                                  and/or Lexis-Nexis checks
    eTravel NGMS
                                 65                  50           15 DOD Secret Clearance                           23%
        WABN
                                 14                   4           10 NACIC                                          71%
        PAR
                                 30                  21           9 NACIC                                           30%
     and NEAR7
      Region 3                                                    9 NCIC
      PBS LAN                    17                   1           6 FBI Fingerprint                                 94%
                                                                  1 Contract Suitability
      Region 9
                                 13                   4           9 DHS Limited Check                               69%
    PBS/FTS LAN




4
  Documentation supporting the type of background checks conducted varied widely by system. NACIC is a National
Agency Check with Inquiries Credit. DOD Secret Clearance is a security clearance for classified documents. NCIC is a
National Crime Information Center check. FBI fingerprint is a basic criminal check. Contract Suitability check did not
define the nature of the background checks. The Department of Homeland Security reported completing an unspecified
limited check for one location.
5
  Officials with significant security responsibilities for eOffer did not provide a list of contractor personnel and the status of
their background checks.
6
  For the eTravel EDS system, no further information was provided as to the type of background investigations that were
completed for contract staff.
7
  Both PAR and NEAR systems are hosted at the same contractor facility and supported by the same staff. Contractor
background check numbers posted represent both systems.
                                                              D-1
   FY 2005 OFFICE OF INSPECTOR GENERAL
   FISMA REVIEW OF GSA’S INFORMATION
     TECHNOLOGY SECURITY PROGRAM
     REPORT NUMBER A050174/O/T/F05024

GSA CIO’S RESPONSE TO DRAFT AUDIT REPORT




                   E-1
                                  FY 2005 OFFICE OF INSPECTOR GENERAL
                                  FISMA REVIEW OF GSA’S INFORMATION
                                    TECHNOLOGY SECURITY PROGRAM
                                    REPORT NUMBER A050174/O/T/F05024

                                               REPORT DISTRIBUTION

                                                                                                                              Copies

Office of the Chief Information Officer (I)..................................................................................3

Office of the FSS Chief Information Officer (FI)........................................................................1

Office of the Chief Financial Officer (B) ....................................................................................2

Office of the Chief People Officer (C) ........................................................................................1

Mid-Atlantic Region 3 (3A).........................................................................................................1

Pacific Rim Region 9 (9A) ..........................................................................................................1

Audit Follow-up and Evaluation Branch (BECA).......................................................................1

Assistant Inspector General for Auditing (JA and JAO) .............................................................2

Deputy Assistant Inspector General for Finance and Administrative Audits (JA-F) ..................1

Deputy Assistant Inspector General for Acquisition Audits (JA-A) ...........................................1

Regional Inspector General for Auditing (JA-3 and JA-9)..........................................................2

Administration and Data Systems Staff (JAS).............................................................................1

Assistant Inspector General for Investigations (JI)......................................................................1

Regional Inspector General for Investigations (JI-3 and JI-9)...................................2




                                                                 D-1
